       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684



December 21, 2009

Report Number: A-01-09-00001

Ms. Brenda Harvey
Commissioner
Maine Department of Health and Human Services
221 State Street
Station Number 11
Augusta, Maine 04333

Dear Ms. Harvey:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Follow-up Audit of the Medicaid Drug Rebate Program in
Maine.” We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through e-mail at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-09-00001 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Brenda Harvey


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare and Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   FOLLOW-UP AUDIT OF THE
    MEDICAID DRUG REBATE
     PROGRAM IN MAINE




                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-01-09-00001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In Maine, the Department of Health and Human Services (the State
agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all of the
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Maine drug rebate program (A-01-03-00007), we determined that the
State agency’s controls were generally in place to record and track the collection of drug rebates.
However, the State agency had not established adequate procedures to ensure that it (1) adjusted
its quarterly Form CMS-64.9R to reflect invoiced rebates and accounting adjustments, resulting
in an inaccurate credit balance of $98 million on the June 30, 2002, Form CMS-64.9R; (2)
followed-up all disputed rebate amounts with the manufacturer in a timely manner, and (3)
properly assessed all interest on unpaid or late drug rebate amounts. We recommended that the
State agency establish procedures to (1) provide accurate pending rebate amounts and properly
present drug rebate receivables in its quarterly reports to CMS, (2) resolve disputed items in a
timely manner in accordance with CMS guidelines, and (3) collect interest on any disputed or
unpaid drug rebate amounts and on any late payments.

The State agency agreed with our findings and recommendations.

This current review of Maine is part of a nationwide series of reviews conducted to determine
whether States have addressed the weaknesses found in the previous reviews in accountability
for and internal controls over their drug rebate programs. Additionally, because the Deficit
Reduction Act of 2005 required States as of January 2006 to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Maine drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by
physicians.



                                                 i
SUMMARY OF FINDING

The State agency had not implemented the recommendations from our prior audit. Specifically,
the State agency had not established procedures to provide accurate pending rebate amounts and
properly report drug rebate receivables in its quarterly report. In addition, although the State
agency had developed policies for resolving disputed items, the State agency had not
implemented these policies. The State agency also did not have a system to calculate and track
the amount of interest owed on unpaid drug rebates.

Regarding the second objective, the State agency had established controls over collecting rebates
on single source drugs administered by physicians.

RECOMMENDATIONS

We reiterate our recommendations that the State agency establish policies and procedures to:

      provide accurate pending rebate amounts and properly report drug rebate receivables in
       its quarterly report,

      resolve disputed items, and

      collect interest on any disputed or unpaid drug rebate amounts as well as any late
       payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed in part with our first and second
findings and recommendations and agreed with our third finding and recommendation.

The State agency stated that it had revised its drug rebate reporting procedures and implemented
a reconciliation process to ensure compliance with the drug rebate reporting requirements
beginning with the quarter ending June 30, 2008. The State agency said that a timing-related
difference between the drug rebate system and the deposit function was responsible for the
ongoing variations between the rebate receipts reported on the State agency’s CMS 64.9R and
the source documentation that we reviewed. Furthermore, although the State agency
acknowledged that it was unable to provide sufficient dispute resolution documentation for all
drug manufacturers, the State agency maintained that it had developed and implemented policies
regarding dispute resolution.

The State agency noted that it was implementing a new claim system in March 2010 that it
anticipates will be able to resolve these outstanding issues.

The State agency’s comments are included in their entirety as the Appendix.




                                                ii
OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that the State agency provide accurate pending rebate amounts and
properly report drug rebate receivables in its quarterly report. The State agency’s revisions did
not include the establishment of procedures to ensure that pending rebate amounts and drug
rebate receivables are always properly presented in its quarterly reports to CMS.

We also continue to recommend that the State agency resolve disputed items. The State
agency’s inability to provide documentation supporting the resolution of all disputed items
indicates that the State agency has not fully implemented its dispute resolution policies.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Drug Rebate Program ....................................................................................1
              Physician-Administered Drugs ......................................................................1
              Prior Office of Inspector General Reports .....................................................2
              Maine Drug Rebate Program .........................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY...................................................3
               Objectives ......................................................................................................3
               Scope..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          IMPLEMENTATION OF PRIOR RECOMMENDATIONS ...................................4
               Reporting of Drug Rebates ............................................................................4
               Disputed Items ...............................................................................................5
               Interest Due for Late Drug Rebate Payments ................................................5

          PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ................................6

          RECOMMENDATIONS...........................................................................................6

          STATE AGENCY COMMENTS..............................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Maine, the Department of Health and Human
Services (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identify,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This form is part of Form
CMS-64, “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,”
which summarizes actual Medicaid expenditures for each quarter and is used by CMS to
reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirements to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1
In Maine, physician-administered drugs are billed to the State Medicaid program on a physician
claim form. The State agency uses the Form CMS-1500 as the physician claim form. The
physician claim form uses the procedure codes that are part of the Healthcare Common
Procedure Coding (HCPC) system instead of the NDC. The HCPC procedure code identifies a
drug by its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Rebates are calculated and paid based on NDCs. In
addition, the billing units for a procedure code may differ from the units used for rebate purposes
(e.g., grams versus liters). Therefore, to determine rebates, procedure codes must be converted
to NDCs for single source drugs, and procedure code billing units must be converted into
equivalent NDC billing units.

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Maine drug rebate program (A-01-03-00007), we determined that the
State agency’s controls were generally in place to record and track the collection of drug rebates.
However, the State agency had not established adequate procedures to ensure that it (1) adjusted
its quarterly Form CMS-64.9R to reflect invoiced rebates and accounting adjustments, resulting
in an inaccurate credit balance of $98 million on the June 30, 2002, Form CMS-64.9R; (2)
followed-up all disputed rebate amounts with the manufacturer in a timely manner, and (3)
properly assessed all interest on unpaid or late drug rebate amounts. We recommended that the
State agency establish procedures to (1) provide accurate pending rebate amounts and properly
present drug rebate receivables in its quarterly reports to CMS, (2) resolve disputed items in a
timely manner in accordance with CMS guidelines, and (3) collect interest on any disputed or
unpaid drug rebate amounts and on any late payments.

The State agency agreed with our findings and recommendations.

Maine Drug Rebate Program

Since 1996, the State agency has contracted with its fiscal agent, Goold Health Systems, to assist
the State agency in managing the drug rebate program. The fiscal agent’s responsibilities
include maintaining the State’s point of purchase systems, which track the drug rebate
transactions, and providing the quarterly invoices both electronically and in hardcopies for the
State agency to mail to manufacturers. The fiscal agent also converts the procedure code billing
units into equivalent NDC billing units. The State agency performs all other functions related to
the drug rebate program.

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.



                                                      2
For the fiscal year ending June 30, 2006, the State agency reported rebate billings of
approximately $98.7 million and collections of approximately $112.6 million on its Forms CMS-
64.9R.

This current review of the Maine drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses found in the previous
reviews in accountability for and internal controls over their drug rebate programs. Additionally,
because the DRA required States as of January 2006 to begin collecting rebates on single source
drugs administered by physicians, this series of reviews will also determine whether States have
complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Maine drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data that it reported on Form CMS-64.9R as of June 30,
2006.

We conducted our fieldwork at the State agency in Augusta, Maine, from February through July
2009.

Methodology

To accomplish our objectives, we:

       reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
        State Medicaid directors, and other information pertaining to the Medicaid drug rebate
        program;

       reviewed the policies and procedures related to the State agency’s drug rebate accounts
        receivable system;

       reviewed the previous Office of Inspector General audit report on the drug rebate
        program in Maine;

       interviewed State agency officials to determine the policies, procedures, and controls that
        related to the Medicaid drug rebate program;



                                                 3
      reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

      reviewed supporting documentation for rebates invoiced, adjustments, and rebates
       collected for the four quarters that ended June 30, 2006 (July 1, 2005, through June 30,
       2006); and

      reviewed fiscal agent documentation to determine the processes used in converting
       physician services claims data into drug rebate data related to single source drugs
       administered by physicians.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency had not implemented the recommendations from our prior audit. Specifically,
the State agency had not established procedures to provide accurate pending rebate amounts and
properly report drug rebate receivables in its quarterly report. In addition, although the State
agency had developed policies for resolving disputed items, it had not implemented these
policies. The State agency also did not have a system to calculate and track the amount of
interest owed on unpaid drug rebates.

Regarding the second objective, the State agency had established controls over collecting rebates
on single source drugs administered by physicians.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

In our prior audit of the Maine drug rebate program, we determined that the State agency had not
established adequate procedures to ensure that it (1) adjusted its quarterly Form CMS-64.9R to
reflect invoiced rebate adjustments or other accounting adjustments, resulting in an inaccurate
credit balance of $98 million on the June 30, 2002, Form CMS-64.9R; (2) followed-up all
disputed rebate amounts with the manufacturer in a timely manner; and (3) properly assessed all
interest on unpaid or late drug rebate amounts.

Reporting of Drug Rebates

Section 2500.7B of the CMS State Medicaid Manual requires States to “maintain in a formal
system of records, in readily reviewable form, supporting documentation that provides detailed
information on pending drug rebates at the beginning of the quarter, the amounts of drug rebates
computed for each labeler, amounts written off, other adjustments made, amounts collected and
remaining pending drug rebate at the end of the quarter. This information must be made
available to Federal reviewers upon request”.




                                                4
Our current review found that the State agency did not always include all of the categories of the
drug rebate transactions on the Form CMS-64.9R summary submitted to CMS. Specifically, the
State agency excluded the supplemental rebate agreement on the Form CMS-64.9R report for the
quarters ending 9/30/2005, 3/31/2006, and 6/30/2006. In addition, the rebate receipts reported
on the Form CMS-64.9R cost report for all four quarters of FY 2006 varied materially from the
source documentation that the State agency provided. For example, for the quarter ending
6/30/2006, the State agency reported total receipts of $28,713,599, whereas the source
documentation provided by the State agency showed receipts totaling $30,605,542, a variance of
$1,891,943.

As a result, we do not have reasonable assurance that the State agency’s CMS-64.9R provided
CMS with an accurate measure of (1) the rebate amounts that the State agency needed to collect
and (2) the likelihood that these rebates would be collected.

Disputed Items

Section V(c) of the National Drug Rebate Agreement states: “The State and manufacturer will
use their best efforts to resolve the discrepancy within 60 days of receipt of such notification. In
the event that the State and the manufacturer are not able to resolve a discrepancy within 60
days, CMS shall require the State to make available to the manufacturer the State hearing
mechanism available under the Medicaid Program.” In addition, Section 2500.7D of the State
Medicaid manual instructs the State to file page 2 of the CMS-64.9R form to explain significant
problems in resolving disputed items that are over 12 months old.

Our current review found that the State agency had not implemented policies for resolving
disputed items. Specifically, we reviewed three manufacturers’ drug rebate accounts that had
been outstanding for more than 1 year to determine what resolution process the State agency had
used to resolve the outstanding accounts. The State agency was unable to provide any resolution
documentation for one manufacturer and provided insufficient documentation for the remaining
two manufacturers.

As a result, we do not have reasonable assurance that the State agency’s CMS-64.9R provided
CMS with accurate information regarding disputed items that were over 12 months old.

Interest Due for Late Drug Rebate Payments

Section V(b) of the National Drug Rebate Agreement mandates that drug manufacturers pay
interest on any disputed or unpaid drug rebate amounts as well as on any late payments. The
State must collect interest and may not disregard it as part of the dispute resolution process.

Our current review found that the State agency’s new claim management system did not
calculate interest due from manufacturers. As a result, the State agency did not know how much
interest was due from the manufacturers and continued to rely on the manufacturers to calculate
interest on unpaid balances and late payments.




                                                 5
As a result, we do not have reasonable assurance that the State agency properly collected all
interest due on unpaid balances and late payments and offset this interest from Federal Medicaid
reimbursement.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

During our audit period, the State agency did not claim rebates on single source drugs
administered by physicians, as the DRA requires. However, in 2008 the State agency
subsequently established controls over collecting rebates on single source drugs administered by
physicians, as the DRA requires.

RECOMMENDATIONS

We reiterate our recommendations that the State agency establish policies and procedures to:

      provide accurate pending rebate amounts and properly report drug rebate receivables in
       its quarterly report,

      resolve disputed items, and

      collect interest on any disputed or unpaid drug rebate amounts as well as any late
       payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed in part with our first and second
findings and recommendations and agreed with our third finding and recommendation.
Specifically:

      The State agency stated that it had revised its drug rebate reporting procedures and
       implemented a reconciliation process to ensure compliance with the drug rebate reporting
       requirements beginning with the quarter ending June 30, 2008. The State agency said
       that a timing-related difference between the drug rebate system and the deposit function
       was responsible for the ongoing variations between the rebate receipts reported on the
       State agency’s CMS 64.9R and the source documentation that we reviewed. The State
       agency noted that it has requested that its new claim system, which will be implemented
       in March 2010, be able to resolve this problem.

      Although the State agency agreed that it was unable to provide sufficient dispute
       resolution documentation for all drug manufacturers, the State agency maintained that it
       had both developed and implemented policies that it actively used to resolve disputed
       items. However, the State agency acknowledged that the current drug rebate system had
       significant limitations, including difficulties documenting dispute resolution activity
       greater than 12 months old. The State agency noted that its new claim processing system,
       scheduled for release in March 2010, will include a fully functioning drug rebate
       subsystem that will be able to accurately report disputed items over 12 months old.


                                                6
The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that the State agency provide accurate pending rebate amounts and
properly report drug rebate receivables in its quarterly report. Although the State agency may
have revised its drug rebate reporting procedures, these revisions did not include the
establishment of procedures to ensure that pending rebate amounts and drug rebate receivables
are always properly presented in its quarterly reports to CMS.

We also continue to recommend that the State agency resolve disputed items. The State
agency’s inability to provide documentation supporting the resolution of all disputed items
indicates that the State agency has not fully implemented its dispute resolution policies. We
therefore encourage the State agency to ensure that its new claim processing system will be able
to resolve this ongoing problem.




                                                7
APPENDIX
                                       APPENDIX: STATE AGENCY COMMENTS
	                                           Page 1 of 3

                                                                                     Department of Health and Human Services
                               Department of Health                                                      Commissioner's Office
                               and Human Services                                                                221 State Street
                                           Maine People Living                                          # 11 State House Station
                             Safe, Healthy and Productive Lives                                     Augusta, Maine 04333-0011
                                                                                         Tel: (207) 287-3707; Fax (207) 287-3005
John E. Baldacci, Governor     Brenda M. Harvey, Commissioner                                               TTY: 1-800-606-0215



                                                                  November 9, 2009

       Mr. Michael J. Armstrong
       Regional Inspector General for Audit Services
       Office of Audit Services, Region 1
       John F. Kennedy Federal Building
       Boston, MA 02203

         Re: Follow-Up Audit of the Medicaid Drug Rebate Program in Maine - Report Number A-Ol-
                                                09-00001

        Dear Mr. Armstrong:

        The State appreciates the opportunity to respond to the above mentioned draft audit report. We
        offer the following comments in relation to the recommendations on Pages 4-6 of this report.

        Below we list each finding followed by our response. For some findings we have included a
        corrective action plan as the resolution will occur when Maine transitions to its new claims
        processing system in the second quarter of Federal Fiscal Year 2010. We believe that with the
        changes we have made and with our new system we will come into compliance with the
        requirements.

        Reporting  of Drug
        Reporting of  Drug Rebates.
                            Rebates.
           Maine did not provide reasonable assurance that the State agency's CMS-64.9R provided
           CMS with an accurate measure of the rebate amounts that the State agency needed to collect
           and the likelihood that these rebates would be collected.

        Response:
        Response:
           Beginning in Federal Fiscal Year 2008, Quarter 3 (QE 6/30/08), the State addressed the
           issues identified in this audit finding. The State revised the CMS-64.9R reporting procedures
           and implemented a reconciliation process to ensure compliance with the drug rebate
           reporting requirements.

              As noted in the finding, "the State agency excluded the supplemental rebate agreement on the
              Form CMS-64.9R report for the quarters ending 9/30/2005, 3/31/2006, and 6/30/2006." The
              Department's finance group, which is responsible for preparing the CMS-64.9R, has worked
              with key personnel in the drug rebate group to ensure that on-going communication between
              the two groups is adequate for proper identification and reporting of drug rebates. On-going
              communication between the two groups is a key control in ensuring that appropriate drug
              rebate information is accurately and completely presented on the CMS-64.9R report.


                                                   Caring .. Responsive .. Well-Managed .. We are DHHS.
                                                                                            Page 2 of 3


  In response to the finding that, " ... the rebate receipts reported on the Form CMS-64.9R cost
  report for all four quarters of FY 2006 varies materially from the source documentation that
  the State agency provided."

  This finding is a result of a timing-related difference between the drug rebate system and the
  deposit function. The particular timing issue is that the drug rebate group receives rebate
  checks and updates the drug rebate system. Subsequently, they forward the rebate checks to
  the deposit group, who then process the collections (effectively posting them to the State's
  Accounting System). The period between when the drug rebate group post the collections in
  the drug rebate system and the point in which the collections are actually posted in the
  accounting system results in the variance identified in this finding. Essentially, most checks
  received by the drug rebate group in the last few days of a quarter, do not get posted in the
  accounting system until the following quarter. To address this issue, the drug rebate group
  provides the check detail maintained in the drug rebate system to the Department's finance
  group. The reconciliation between the data in the drug rebate system and the accounting
  system is a key control to ensure that the variance is due to timing. This variance is clearly
  identifiable on the CMS-64.9R back-up support provided quarterly to CMS.

   The State has identified the need to be able to eliminate this on-going timing difference and
   has requested a solution in the new claims system. The timing issue noted above is currently
   being reviewed by UNISYS.

Disputed Items.
   Maine did not provide reasonable assurance the the State agency's CMS-64.9R provided
   CMS with accurate information regarding disputed items that were over twelve months old.

Response:
   We partially agree with the OIG audit findings concerning this topic. While we agree that
   we were unable to provide sufficient dispute resolution documentation for the three labelers
   identified, we do not agree that we "had developed policies regarding the resolution of
   disputed items ... [but] had not implemented these policies."

   Due to significant limitations ofthe current drug rebate system (such as lack of call tracking,
   reminder/recall features and front-end reporting), the ability of rebate staff to provide
   evidence of randomly selected dispute activity is likewise significantly impaired. Because
   the current database was not intended as a permanent solution, disputed items greater than 12
   months old have proven to be particularly challenging.

    Having said that, we have both developed and implemented policies that we actively use to
    resolve disputes including protocols for providing outstanding balance and claim level detail
    reports, resolving conversion issues, and corresponding with labelers via phone, fax and e­
    mail. We will continue with this dispute resolution approach in Maine until we implement
    our new CMS-certified MMIS in March 2010. The new MMIS will have a fully functioning
    drug rebate subsystem, including the ability to accurately report disputed items over 12
    months old on the CMS-64.9R.
                                                                                              Page 3 of 3

Interest Due for Late Drug Rebate Payments.
    Maine did not provide reasonable assurance that the State agency properly collected all
    interest due on unpaid balances and late payments and offset this interest from Federal
    Medicaid reimbursement.

Response:
   While the present drug rebate system is unable to calculate interest, a new vendor has been
   selected that will provide complete functionality with respect to this finding. The new
   vendor has described how this function will work when the new rebate system is
   implemented in March 2010, as follows:

   Interest will be calculated based upon the outstanding dollar amount for a particular line
   item. The calculation then takes into account each labeler payment activity starting with the
   earliest, to determine if interest was due at the time of payment. If interest was due, the
   process then computes interest up to the payment date. Calculation of outstanding balance
   then occurs. This process is repeated until there are no more labeler payment activities for
   that invoice line item. It should be noted that all interest calculations are based upon a 365­
   day year (no leap year calculations) and that calculations will round up to the nearest cent.

We appreciate the time spent in Maine by OIG staff reviewing Maine's drug rebate processes.
We believe this effort will enable us to perform this function more accurately in the future.

                                              Sincerely,



                                           ~e~Commissioner

BMHlklv

cc: 	   Russell Begin, Deputy Commissioner, Finance 

        Tony Marple, Director, Office of MaineCare Services 

